           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s High Dollar                                                   Date:    September 12, 2012
           Improper Payments Identified during
           the Quarter Ending December 31, 2011

  From:    Louis C. King                                                                 Reply to
                                                                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
             Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer


           Executive Order (EO) 13520, “Reducing Improper Payments,” and Office of
           Management and Budget (OMB) Circular A-123, Appendix C, Part III,1 require
           each agency to submit to its Inspector General and the Council of Inspectors
           General on Integrity and Efficiency (CIGIE) quarterly reports on individual
           high-dollar improper payments.2 The EO also requires Inspectors General (IG) to
           review their agencies’ reports and provide recommendations to agency heads for
           improvements to their improper payment corrective action plans.

           To accomplish this requirement, we reviewed the “Department of Transportation
           (DOT) High Dollar Improper Payments identified during the Quarter Ending
           December 31, 2011” (appendix) for accuracy and completeness. Using OMB’s
           reporting thresholds, we determined whether the report accurately presented the
           high-dollar improper payment amounts identified during DOT’s fiscal year 2011
           improper payment testing. We also assessed DOT’s compliance with reporting
           requirements for high dollar overpayments. We obtained supporting
           documentation on the amounts reported and the actions taken as described in the
           Department’s report. Finally, because DOT submitted its last prior quarterly report
           on high-dollar overpayments to OMB in January 2011, we confirmed that the
           Department notified OMB when it had no high-dollar overpayments in the
           quarters ending March 31, June 30, and September 30, 2011.

           1
               Requirements for Implementing Executive Order 13520: Reducing Improper Payments, March 22, 2010.
           2
               A high dollar overpayment is an improper payment to an entity that exceeds the correct amount by $25,000 or more,
               in a single payment or in cumulative payments throughout a quarter.
                                                                                                       2


In the enclosed report, submitted to OMB on January 30, 2012, DOT reported two
high-dollar overpayments. We did not identify any additional high-dollar
overpayments that DOT should have reported for the quarter ending
December 31, 2011.3 Furthermore, the report contained the required information,
except for (1) whether the improper payments were made by individuals or entities
and (2) the actions taken to prevent improper payments in future. DOT included
this information in its fiscal year 2011 Agency Financial Report. We are not
making any recommendations at this time.

If you have any questions concerning this letter, please contact me at
(202) 366-1407, or Earl Hedges, Program Director, at (410) 962-1729.

                                                    #




3
    DOT-OIG, DOT’s Improper Payment Reporting Generally Complies with IPERA, FI-2012-073, March 15, 2012.
    OIG reports can be found at www.oig.dot.gov.
                                                                     3


APPENDIX DOT JANUARY 30, 2012 (QUARTERLY) EO REPORT
MEMORANDUM




Appendix. DO T January 3 0, 2012 (Quarterl y) EO Report Memorandum
                                                                     4


APPENDIX DOT JANUARY 30, 2012 (QUARTERLY) EO REPORT
MEMORANDUM




Appendix. DO T January 3 0, 2012 (Quarterl y) EO Report Memorandum
